                                                    Testimony
Before the Subcommittee on Government Operations,
Committee on Oversight & Government Reform
House of Representatives




            Food and Beverage Service: 

        Progress and Opportunities to Reduce 

                  Operating Losses 


                            Statement of Ted Alves 

                               Inspector General 

                   National Railroad Passenger Corporation



                                  November 14, 2013

                                     9:30 a.m. EST


              Not releasable until 9:30 a.m. Thursday, November 14, 2013



                                    OIG-T-2014-002
Good Morning Chairman Mica, Ranking Member Connolly, and Members of the
Subcommittee:

Thank you for the opportunity to discuss Amtrak’s food and beverage service. My
testimony today will focus on two areas:

   1. Amtrak’s progress in reducing losses, and

   2. Opportunities to further reduce losses by improving business practices,

      processes, and management information


In summary, losses on Amtrak’s food and beverage service have been a long‐standing
issue. From fiscal year (FY) 2006 through FY 2012, the food and beverage service
incurred direct operating losses of more than $609 million. The overwhelming majority
of the losses were incurred on its long‐distance routes.

We recognize that it is a significant challenge to provide efficient and cost‐effective food
and beverage services across a nationwide passenger rail system with varying route
lengths and 24/7 operations. To successfully meet that challenge, it is important that
Amtrak consider fundamental changes in its management of the food and beverage
service.

Over the last several years, Amtrak has taken actions to reduce food and beverage
losses. Nevertheless, in FY 2012, losses still totaled $72 million. In our most recent
report, we identified a number of opportunities to improve the efficiency and cost‐
effectiveness of the food and beverage service, including improving business processes
and developing better business management data. Also, outsourcing certain food and
beverage services could significantly reduce labor costs, but has complex workforce and
financial implications. The corporation agreed with the spirit of our recommendations
and announced in October 2013 that it is developing a five‐year plan to eliminate food
and beverage losses.

We are encouraged by this commitment, but recognize that promised actions alone
cannot substitute for results. Without a well‐documented plan that includes clear
organizational accountability, year‐by‐year loss reduction goals and metrics, and a
sustained management commitment, Amtrak will not likely achieve the results it seeks.
We will monitor the corporation’s progress developing and implementing the plan.
                                                                                            2


Losses Have Decreased but Remain Significant
Food and beverage service is an amenity that is common on passenger rail, and
Amtrak’s passengers have come to expect it, particularly on routes that take several
days. Amtrak’s operating losses on food and beverage services have been a long‐
standing issue, and they contribute directly to the need for federal subsidies to support
operations. To Amtrak’s credit, it has reduced food and beverage losses, but they
remain significant.

From FY 2006 through FY 2012, food and beverage operating losses decreased by a
reported $33.2 million, as shown in Figure 1.

                 Figure 1. Amtrak’s Reported Food and Beverage 

                            Direct Operating Losses, 

                     FY 2006 to FY 2012 (dollars in millions) 

        $120.0
                   $105.2
        $100.0
               $92.0
                                        $86.8              $86.8     $86.3
                                                 $80.1
         $80.0
                                                                $72.0


         $60.0



         $40.0



         $20.0



          $0.0
                   FY 2006   FY 2007   FY 2008   FY 2009   FY 2010   FY 2011   FY 2012

      Source: Finance department, Food and Beverage Marketing Reports, FY 2006–FY 2012
      Note: All figures are reported in 2012 dollars.
                                                                                                            
 

As shown in Table 1, about 99 percent of FY 2012 food and beverage losses 
($71.5 million) came from long‐distance routes; labor costs were the key driver of the 
losses. For example, on 13 of Amtrak’s 15 long‐distance routes, labor costs alone 
exceeded the revenue for food and beverage service.  
 
      Table 1. Reported Food and Beverage Direct Operating Loss, 

                      FY 2012 (dollars in millions) 

                                             Direct Costs
                 Food and                                          Total
                 Beverage       Onboard                           Direct      Profit/    Percentage
Routes            Revenue         Labor       Commissary          Costs        Loss          of loss
Northeast
Corridor              $36.5         $19.0             $16.7        $35.7        $0.8              -1%
State-
supported              32.9          19.0               15.2         34.2      (1.3)a                  2
Long-
distance               63.5         75.3               59.8        135.0      (71.5)               99
 Total               $132.9       $113.2              $91.7       $204.9     ($72.0)            100%
Source: Amtrak Finance department, Food and Beverage Marketing Report for FY 2012.
Note: Numbers do not all add to totals due to rounding.
a
 Food and beverage operating losses on state-supported routes came from the routes where Amtrak
provided services that are not subsidized by the states. The Passenger Rail Improvement & Investment
Act of 2008 directed equal treatment of the states by October 16, 2013. 

 
Amtrak achieved its reported reductions in losses from FY 2006 through FY 2012 as a 
result of revenue increases and efficiency improvements that reduced costs. The 
revenue increases came from the following sources: 
 
     	 Food and beverage revenue transfers from sleeper class on long‐distance routes 
       and Acela first‐class tickets increased by $22.1 million.  
       Onboard cash and credit card sales increased $8.9 million on all routes. 
       Subsidies from state‐supported routes, which Amtrak counts as revenue, 
       increased by $1.2 million, from $9.7 to $10.9 million. 
 
In addition, Amtrak took actions to reduce costs: 
 
    	 In October 2008, Amtrak awarded a new contract for food and beverage service 
      warehouse management that included greater volume discounts and incentives 
      to control costs. As a result, from FY 2006 through FY 2012, commissary costs 
      decreased by $4.5 million. 




 
     	 Starting in fall 2011, Operations department officials began implementing
       staffing efficiencies, such as reducing reporting times for onboard staff on
       selected long‐distance routes. Although labor costs decreased by $6.2 million in
       the first full year after implementing these efficiencies, overall labor costs
       increased by $3.6 million from FY 2006 through FY 2012.1

To enhance the management of the food and beverage services, the corporation
consolidated previously dispersed responsibilities for food and beverage activities into
the Operations department. Although this was a positive step, three offices in
Operations still have food and beverage responsibilities and separate reporting chains
to the Vice President, Operations. As a result, accountability for improving financial
performance remains split among the three, leaving final accountability with the Vice
President, Operations.

In addition, our previous reports have documented long‐standing internal control
weaknesses and gaps in the onboard food and beverage service. In a June 2011 report,
we estimated that $4 million to $7 million of Amtrak’s onboard food and beverage sales
could be at risk of theft.2 The report identified limited oversight on some routes and a
number of recurring employee schemes to steal revenues and inventories. Examples
include inflating first‐class meal checks, selling non‐Amtrak items for cash, shorting
cash register sales, stealing inventory, and providing items at no cost. In response to our
recommendations, the corporation has established a loss‐prevention unit and also plans
to establish a pilot project for cashless food and beverage sales in early 2014.



Additional Business Process Changes Provide Opportunities to
Reduce Losses
Our October 2013 report identified a number of opportunities to improve business
practices, processes, and management information.3




1 A	portion	of these	increases	resulted	from	a	2010	labor	agreement,	which	provided	guaranteed	wage	
increases	for	food	and	beverage	employees.	
2
  Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to Control Weaknesses and

Gaps,	Report	No.	E‐11‐03,	June	23,	2011.

3 Food and Beverage Service: Potential Opportunities to Reduce Losses,	Audit Report	OIG‐A‐2014‐001,	October	


31,	2013.

Opportunities to Improve Existing Model
Our report identified six opportunities to improve business practices and processes,
which we conservatively estimate have the potential to reduce losses by at least
$10.5 million annually—and probably much more, depending on how they are
implemented. Based on our work, we believe that Amtrak can capitalize on most of
these opportunities in the near‐ to medium‐term.

   1.	 Align staffing of dining cars to ridership. When staffing dining cars, route
       managers are not required to consider seasonal changes in customer demand,
       which results in unnecessary labor costs. We estimate that aligning onboard
       staffing on 13 long‐distance routes with seasonal changes in ridership could have
       reduced costs by about $6.9 million in FY 2012.

   2.	 Monitor and manage the sales performance of lead service attendants. The
       amount of revenue generated by different lead service attendants on the same
       routes varies widely, which suggests an opportunity to earn more by using
       performance monitoring tools and employee incentives. Increasing the sales
       performance of these employees by just one percent in 2012 would have
       generated $1.6 million. Amtrak is developing a report for managers to monitor
       the sales performance of lead service attendants.

   3.	 Shorten reporting times for onboard service personnel. Each long‐distance
       route manager determines reporting times based on operational needs. As a
       result, the times vary from one to five hours before the train’s scheduled
       departure. On the three long‐distance routes we traveled, shortening the time
       period could reduce labor costs by about $100,000 annually.

   4.	 Align service to the needs of each route. Route managers retain their base
       dining car service year‐round for the duration of each long‐distance trip
       regardless of customer demand. Our analysis identified opportunities to align
       food and beverage service with variations in ridership, customer demand, and
       financial performance. These include amending or eliminating the sit‐down
       dining car service seasonally on selected routes or on portions of some routes.

   5.	 Ensure that the cost of complimentary items is recovered. The Auto Train offers
       passengers complimentary wine and cheese, and three long‐distance routes
       provide complimentary wine and champagne to sleeper car passengers. In
       FY 2012, this practice cost Amtrak $428,000. In addition, employee pass riders
       travelling for free consumed about $260,000 in complimentary meals on the Auto
       Train in FY 2012. Amtrak can increase revenues and thereby decrease losses by
       charging passengers for these items.
                                                                                                      6 
 
      6.	 Reduce spoilage. The food spoilage rate of the Great Southern Rail in Australia 
          is 5 percent; Amtrak’s is 8.3 percent. We identified a number of causes for 
          spoilage, including high onboard stock levels and excessive backordering. The 
          Downeaster, a state‐supported Amtrak route, reduces spoilage by reducing the 
          price of food that approaches its expiration date at the end of trips. Selling food 
          approaching its expiration date would increase revenue. Reducing spoilage to 
          the level of the Great Southern Rail could save more than $1.2 million annually. 

 
Improved Business Performance Information Needed for Effective Management
We also found that the food and beverage accounting process lacks the capability to 
generate the information needed to efficiently and effectively operate the service. For 
example, route managers lack labor cost and revenue data by train and departure date, 
as shown in Table 2.  
 
         Table 2. Availability of Food and Beverage Financial Data by

                                Operational Level

    Operational Level    Revenues                                   Costs
                                            Labor
                                            Wages          Labor
                                          & Benefits      Supporta        Food          Commissary

System-wide               Available        Available      Available     Available        Availableb

Routec                    Available       Available       Availablee    Available        Availablef
                                         Available,
                                           but not
                                        calculated by
Train, by departure       Limited        departure
dated                    Availability       date          Availablee    Available        Availablef
Food Service Car,         Limited
by departure date        Availability    Unavailable      Availablee    Available        Availablef
Source: Amtrak OIG analysis of Amtrak data and officials’ statements 

Notes: 

a
  Crew meals, crew hotels, uniforms, training, and some crew base costs 

b
  Actual food costs are tracked and available for each of the 11 commissaries.

c
  There are 44 different routes (not including special trains).

d
  More than 300 trains operate each day. 

e
  These costs are allocated.

f
  These costs are allocated based on the number of trains served by each commissary.

 

Amtrak’s systems do not have the capability to track this data. To achieve profit‐and‐
loss accountability for the service, cost and revenue data must be more complete and



 
                                                                                            7


accurate. In addition, Amtrak’s accounting process lacks the capability to generate
needed business information—such as the time of individual sales. The lack of this data
hinders the ability of managers to align staffing with customer demand.



Contracting Could Offer Significant Benefits, but Has Complex Workforce and
Financial Implications
To achieve a more significant impact on financial performance, Amtrak may require a
completely different business model. As we reported, contracting out food and
beverage services offers the greatest potential for cost reductions; nevertheless, this
change to the business process would be complex and risk‐prone. Consequently, this
option should be approached in a structured, methodical manner.

Leading organizations consider it a best practice to pilot new programs and ideas to
determine the costs and benefits of a new approach. In addition, when considering the
outsourcing of activities, best practices organizations first ensure that their business
processes use the most efficient and effective approach for conducting the activity.
Otherwise, the cost of outsourcing could be higher than necessary, and much of the
subsequent efficiency gains could benefit only the contractor—not the organization.
Clearly, Amtrak’s business processes are not optimized so there are significant
efficiencies to be gained from process improvements.

Amtrak also would need to consider other qualitative and quantitative factors. The
quantitative factors include the applicability of various railroad labor statutes—such as
the Railroad Retirement Act, the Federal Employers’ Liability Act, and the Railroad
Unemployment Insurance Act. Amtrak must also weigh certain qualitative factors, such
as the safety and security responsibilities of onboard personnel, and the possibility of
labor unrest. Further, a contractor would likely have to obtain its own liquor licenses,
which cost Amtrak about $88,000 a year—not including the administrative costs to
research state and local laws and navigate the application and approval process in
multiple jurisdictions.

Other railroads have tried this approach successfully. Although these models do not
provide a direct comparison to Amtrak’s food and beverage service, they are generally
similar. As such, they can provide useful information for identifying and considering
ways to reduce food and beverage losses. For example, the Downeaster, Alaska
Railroad, and the Rocky Mountaineer contract with third parties for all or nearly all of
their food and beverage service.
                                                                                                         8


On all three railroads, labor rates for food and beverage personnel are significantly
lower than Amtrak’s. According to Downeaster and Alaska Railroad officials, hourly
labor rates for contracted staff, including servers and cooks, ranged from $7.75 to
$13.00, with no employee benefits. In FY 2012, hourly labor rates for contracted cooks
on the Rocky Mountaineer averaged $14.70, including limited benefits. In contrast,
Amtrak’s onboard employees were paid an average of $41.19 per hour in FY 2012,
including full benefits.4



What We Recommend
Since we reported on potential improvements to the food and beverage service in 2011, we
have made various recommendations to the President and Chief Executive Officer, and the
Vice President, Operations, to improve the efficiency and effectiveness of food and
beverage services.

In September 2012, we recommended the development of a five‐year plan for reducing
direct operating losses and emphasized the need to improve program accountability. In
October 2013, we recommended developing improved financial and business management
data, piloting various options to increase efficiency, and piloting contracting out food and
beverage services on selected routes. In commenting on both of our reports, Amtrak agreed
with the spirit of our recommendations and agreed to take actions, such as the
development of a five‐year plan, with a goal to eliminate food and beverage losses. We will
continue to monitor Amtrak’s progress addressing our recommendations and report as
appropriate.

                                                    ————

Mr. Chairman, I thank the Committee for your interest in our work. This concludes my
testimony, and I welcome your questions.




4		The	labor	rate	is	based	on
                            the	average	hourly	rate	plus	hourly	benefit	rate	for	the	highest	wage	position	
(lead	service	attendant)	and	lowest	wage	position	(service	attendant).	Amtrak	benefits	include	medical	
insurance,	railroad	retirement,	post‐employment	benefits,	dental	insurance,	disability	insurance,	life	
insurance,	unemployment, railroad	workers	compensation,	and	administrative	fees.	The	Rocky	Mountaineer’s
benefits	include	only	medical	insurance.	
